No. ________________
IN THE SUPREME COURT OF THE UNITED STATES
JANE DOE, individually and as Parent/Guardian of Baby Doe, BABY DOE,
Petitioners,
– v. –
MERCK & CO., INC., HEALTH AND HUMAN SERVICES, ALEX AZAR, in his official
capacity as Secretary of Health and Human Services, NORMAN E. SHARPLESS, M.D.
in his official capacity as Acting Commissioner of Food and Drug (a division of HHS),
UNITED STATES OF AMERICA,
Respondents
PROOF OF SERVICE
I, Nikolina Gurfinkel, do swear or declare that on this date, October 5 , 2020, as
required by Supreme Court Rule 29 and pursuant to the Order of the Supreme
Court of the United States, dated April 15, 2020 (589 U.S.), I have served the
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by giving
one true copy of same, addressed to each individual respectively, and enclosed in a
properly addressed wrapper, to Federal Express for Overnight Delivery, postage
prepaid.
The names and addresses of those served are as follows:
Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 20530-0001
Julianna McPherson
Department of Justice
Civil Division Constitutional Torts
1425 New York Ave NW Room 8154
Washington, DC 20005
202-616-4326
and

Layaliza K. Soloveichik
United States Attorneys Office
Eastern District Of New York
Civil Division
271 Cadman Plaza East, 7th Floor
Brooklyn, NY 11201
718-254-6298
Attorneys for Respondents Health and Human Services, Alex Azar, in in
official capacity as Secretary of Health and Human Services, Stephane Hahn,
M.D. in his official capacity as Commissioner of Food and Drug (a division of
HHS), and United States of America
Dino Santo Sangiamo
Venable LLP c\o Merck
900 East Pratt Street, Suite 900
Baltimore, MD 21202
Attorneys for Merck & Co., Inc.
Merck Headquarters
2000 Galloping Hill Road
Kenilworth, NJ 07033
That on the same date as above, I sent to this Court one copy of the within Petition
for a Writ of Certiorari via Federal Express Overnight Delivery, postage prepaid.
All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Sworn to before me this
October 5, 2020

s/Nikolina Gurfinkel
Nikolina Gurfinkel
ORIGINAL

38469

